IN THE
SUPREME COURT OF THE UNITED STATES

LORENZO DAVIS,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Needum L. Germany, III, Assistant Federal Defender for the Western District of
Tennessee, do swear or declare that on this date, September 17, 2020, as required by Supreme
Court Rule 29, I have filed electronically via this Court’s electronic filing system and also served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Noel Francisco, Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., NW
Washington, D. C. 20530-0001
Patrick Neal Oldham
Assistant U.S. Attorney
167 North Main St., Suite 800
Memphis, TN 38103

With a courtesy copy also e-mailed this same date to the Solicitor General, at:
SUPREMECTBRIEFS@USDOJ.GOV.
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 17th day of September, 2020.
DORIS RANDLE HOLT
FEDERAL DEFENDER

/s Needum L. Germany, III
By: Needum L. Germany, III
Court-Appointed Counsel for Petitioner

2

